         U.S. Department of
                                                                                  Memorandum
         Transportation
         Office of the Secretary
         of Transportation
         Office of Inspector General

Subject: INFORMATION: Quality Control Review of                                            Date:      April 15, 2013
         Single Audit on the San Francisco Bay Area Rapid
         Transit District
         Report No. QC-2013-069

 From: George E. Banks                                                                    Reply to
                                                                                          Attn. of:   JA-20
       Program Director for Single Audit

    To: Regional Administrator, FTA Region IV

         The U. S. Department of Transportation (DOT) is the cognizant Federal single audit
         agency for the San Francisco Bay Area Rapid Transit District (District). This report
         presents the results of our Quality Control Review (QCR) of a single audit of the
         District performed by Macias Gini & O’Connell LLP (MGO) for the fiscal year
         ending June 30, 2011. During this period, the District expended approximately
         $111 million from DOT grant programs, as shown on the attached Schedule of
         Expenditures of Federal Awards. The DOT program determined to be major by
         MGO was the Federal Transit Cluster.

         The Office of Management and Budget’s (OMB) Circular A-133, “Audits of States,
         Local Governments, and Non-Profit Organizations,” requires the auditor to render
         an opinion on the entity’s financial statements, identify inappropriate use of Federal
         funds, and report internal control and compliance deficiencies that affect Federal
         grant programs.

         MGO rendered an unqualified opinion on the District’s financial statements and the
         District’s compliance with DOT’s major program requirements for the Federal
         Transit Cluster. They also did not question any cost concerning DOT programs. 1

         SCOPE

         The purpose of our QCR was to determine: (1) whether the audit work complied with
         the Single Audit Act of 1984, as amended (the Act), and OMB Circular A-133, and
         (2) the extent to which we can rely on the auditors’ work on the major DOT program,
         the Federal Transit Cluster.




         1
             The single audit report issued by MGO is available upon request sent to singleauditrequest@oig.dot.gov.
                                                                                    2

RESULTS

We determined that MGO’s audit work was Acceptable with a Deficiency, and
therefore, generally met the requirements of the Act, OMB Circular A-133, and
DOT’s major program. We found nothing to indicate that MGO’s opinion on DOT’s
major program was inappropriate or unreliable.

While the deficiency we identified in the audit documentation needs to be corrected,
we determined that the deficiency did not alter the overall results of the audit report.
The deficiency, which should be corrected in future audits, is related to:

Understanding of the Major Program’s Internal Controls (Cash Management
and Reporting) – Based on our discussion with MGO personnel, MGO performed
walkthroughs, observations, and inquiries of the District’s staff to identify key
controls for its major program internal control testing. However, MGO did not
adequately document its complete understanding of the five components of internal
control related to cash management and reporting. MGO agreed to document its
understanding of the five components of internal control in future audits.

If you have any questions concerning this report, please call me at (410) 962-1729, or
John R. Sysak, DOT National Single Audit Coordinator, at (410) 962-2630.


                                          #

cc: Audit Liaison, FTA, TPM-2
    Audit Liaison, OST, M-1
    Assistant Controller, San Francisco Bay Area Rapid Transit District
